No. _______

In the
Supreme Court of the United States
MICHAEL J. McGOWAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

D. CRAIG HUGHES
Counsel for Petitioner
7324 Southwest Freeway
Suite 1466
Houston, Texas 77074
713-535-0683
dcraighughes@msn.com

-iQUESTION PRESENTED
Whether Petitioner, a mentally ill prisoner serving a
110-year prison sentence, whose appellate counsel led him
to believe that no further legal challenges to that sentence
were possible following conclusion of direct review, and
who filed a pro se motion to vacate, pursuant to 28 U.S.C.
§ 2255, with reasonable diligence after learning of the
availability of that vehicle, demonstrated the requisite
“diligence” and “extraordinary circumstances” to warrant
equitable tolling, such that this Court should remand to
the United States Court of Appeals for the Second Circuit
with instructions to issue a certificate of appealability?

-iiPARTIES TO THE PROCEEDINGS
There are no parties to the proceeding other than
those listed in the style of the case.

RELATED CASES
•

United States v. Michael McGowan, No. 2:09-cr00653, U.S. District Court for the Eastern District of
New York. Judgment entered Feb. 6, 2014.

•

United States v. Michael J. McGowan, No. 14-501,
U.S. Court of Appeals for the Second Circuit.
Judgment entered June 29, 2015.

•

Michael J. McGowan v. United States, No. 2:17-cv4035, U.S. District Court for the Eastern District of
New York. Judgment entered Nov. 9, 2017.

•

Michael J. McGowan v. United States, No. 18-97,
U.S. Court of Appeals for the Second Circuit.
Judgment entered Apr. 27, 2020.

-iiiTABLE OF CONTENTS
Page
QUESTION PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS . . . . . . . . . . . . . . . . . ii
RELATED CASES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL & STATUTORY PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 4
A.

Petitioner’s Guilty Plea Was Not
Knowing, Intelligent and Voluntary . . . . . 4

B.

The District Court Denied Equitable
Tolling and COA . . . . . . . . . . . . . . . . . . . . . 5

C.

The Second Circuit Denied COA . . . . . . . 8

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . 9

-ivARGUMENT:
A.

The COA Standard . . . . . . . . . . . . . . . . . . . 9

B.

Reasonable Jurists Could Debate or, for
that Matter, Agree That Relief is
Appropriate on Petitioner’s Sixth
Amendment Claim . . . . . . . . . . . . . . . . . . 11

C.

Reasonable Jurists Could Debate or, for
that Matter, Agree That the AEDPA
Should Have Been Tolled Due to Misadvice
from Appellate Counsel Coupled With
Petitioner’s Mental Illness. . . . . . . . . . . . 17

D.

This Court Should Summarily Reverse the
Second Circuit’s Order Denying COA . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

-vINDEX OF APPENDICES
Appendix - A:
Order of the United States Court of
Appeals for the Second Circuit denying a certificate of
appealability. Dated: April 27, 2020 . . . . . . . . . . . . . . . . A1
Appendix - B:
Order of the United States District
Court for the Eastern District of New York. Dated:
November 9, 2017. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A3

-viTABLE OF AUTHORITIES
CASES

Page(s)

Baldayaque v. United States,
338 F.3d 145 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . 17
Barefoot v. Estelle,
463 U.S. 880 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 11
Bolarinwa v. Williams,
593 F.3d 226 (2d. Cir. 2010) . . . . . . . . . . . . . . . . . . 8, 18, 21
Dillon v. Conway,
642 F.3d 358 (2d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . . 18
Doggett v. United States,
505 U.S. 647 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Falter v. United States,
23 F.2d 420 (2d. Cir. 1928) . . . . . . . . . . . . . . . . . . . . . . . . 13
Hill v. Lockhart,
474 U.S. 52 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 11
Holland v. Florida,
560 U.S. 631 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 17, 18
Holmberg v. Armbrecht,
327 U.S. 392 (1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

-viiLawrence v. Florida,
549 U.S. 327 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Leavitt v. Jane L.,
518 U.S. 137 (1996) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Lee v. United States,
137 S.Ct. 1958 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Maryland v. Dyson,
527 U.S. 465 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Miller-El v. Cockrell,
537 U.S. 322 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10, 11
Pace v. DiGuglielmo,
544 U.S. 408 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Schweiker v. Hansen,
450 U.S. 785 (1981) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Slack v. McDaniel,
529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Smith v. McGinnis,
208 F.3d 13 (2d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . . . 17
Strickland v. Washington,
466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
United States v. Bass,
536 U.S. 862 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

-viiiUnited States v. Gouveia,
467 U.S. 180 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15

STATUTES
18 U.S.C. § 2251(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13
18 U.S.C. § 2252A(a)(2)(A) . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2106. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
28 U.S.C. § 2255. . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 9, 11

-1OPINIONS BELOW
The Order of the United States Court of Appeals for
the Second Circuit denying Petitioner’s motion for
certificate of appealability is unpublished and may be
found at USCA Case No. 18-97; Michael J. McGowan v.
United States of America (April 27, 2020) (Appendix A1).
The Order of the United States District Court for the
Eastern District of New York denying Petitioner’s motion
to vacate and denying him a certificate of appealability is
unpublished and may be found at USDC Case No. 2:09-cr653 (November 9, 2017)) (Appendix - A3).

STATEMENT OF JURISDICTION
The Second Circuit’s Order denying Petitioner’s
motion for certificate of appealability was entered on April
27, 2020.
This Court enjoys jurisdiction pursuant to 28 U.S.C. §
1254(1).

-2CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves a federal criminal defendant’s
constitutional rights under the Fifth and Sixth
Amendments. The Fifth Amendment provides in pertinent
part:
No person shall be . . . deprived of life, liberty, or
property, without due process of law.
The Sixth Amendment provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy
the right to . . . have the assistance of counsel for his
defense.
This case also involves the application of 28 U.S.C. §
§ 2253(c) & 2255(f)(1). 28 U.S.C. § 2255(f)(1) states in
pertinent part:
(f) A 1-year period of limitation shall apply to a motion
under this section. The limitation period shall run
from the latest of–
(1) the date on which the judgment of
conviction becomes final;
28 U.S.C. § 2253(c) provides that:

(1) Unless a circuit justice or judge issues a

-3certificate of appealability, an appeal may not be
taken to the court of appeals from—
...
(B) the final order in a proceeding under
section 2255.
...
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a constitutional
right.

-4STATEMENT OF THE CASE
A. Petitioner’s Guilty Plea Was Not Knowing,
Intelligent and Voluntary.
Petitioner was charged in 2009 with three counts of
sexual exploitation of children, related to his 2001 contact
with three children aged 10 to 13, which he recorded. See
DE # 42; 18 U.S.C. § 2251(a), (d). Petitioner’s counsel
misadvised him that he lacked any viable defense to the
charges he faced, when in fact he enjoyed a potential Due
Process challenge to the pre-indictment delay in this case.
As a result of counsel’s misadvice, Petitioner pleaded
guilty to the offenses without a plea agreement, and
without any incentive or demonstrable benefit flowing
from that plea. The district court sentenced Petitioner to
consecutive, statutory-maximum prison terms of 360
months on each count, to follow an undischarged
240-month term imposed by the same judge in 2006, after
Petitioner’s guilty plea to attempted receipt of child
pornography. See 18 U.S.C. § 2252A(a)(2)(A).
In his motion to vacate, pursuant to 28 U.S.C. § 2255,
Petitioner challenged his guilty plea as not knowing,
intelligent and voluntary, based on ineffective assistance
of counsel. Specifically, Petitioner argued that counsel’s
advice that Petitioner had no viable defense to the charges
he faced, when in fact he had a viable Due Process claim
based on pre-indictment delay, was objectively inaccurate,
fell below the minimum level of competence and
constituted deficient performance under Hill v. Lockhart,
474 U.S. 52 (1985), and Strickland v. Washington, 466

-5U.S. 668 (1984). Petitioner further argued that absent
counsel's misadvice, there was a reasonable probability
that he would have persisted in his plea of not guilty and
proceeded to exercise his right to a trial by jury,
demonstrating prejudice under Hill.
B. The District Court Denied Equitable Tolling and a
Certificate of Appealability (“COA”).
Petitioner’s motion to vacate was filed outside the 1year AEDPA statute of limitations, pursuant to 28 U.S.C.
§ 2255(f)(1). Accordingly, Petitioner sought equitable
tolling under Lawrence v. Florida, 549 U.S. 327, 336
(2007). Petitioner argued that he had demonstrated the
requisite “reasonable diligence” required under Holland
v. Florida, 560 U.S. 631, 653 (2010), based on the
misadvice he received from appellate counsel, by seeking
to retain post-conviction counsel as soon as he learned
such advice was inaccurate, and thereafter attempting to
complete the pro se § 2255 form. Petitioner further
argued that his inability to timely file based on
extraordinary circumstances, including his mental illness,
should not be held against him, and equitable tolling
should be granted for the period he was laboring under
the misadvice of appellate counsel.
Petitioner described in the memorandum brief in
support of his motion to vacate, and attested to the
accuracy of the following in his declaration under penalty
of perjury supporting the same, that successor appellate
counsel misadvised him that no further legal actions were
possible based on the Second Circuit's decision affirming

-6his sentence. Petitioner explained that he reasonably
relied on the accuracy of this misadvice, sincerely
believing that he had no option but to serve however much
of the 110-year sentence his life span would allow. On this
basis, Petitioner argued that he exhibited reasonable
diligence in the pursuit of his rights from the time he
received this misadvice, around the time of the Second
Circuit's decision affirming his sentence, until he
discovered the availability of a motion to vacate under §
2255 during the Summer of 2016.
Petitioner explained that once he learned that
appellate counsel's advice was false and that there was an
available legal action to seek to challenge his sentence, he
promptly asked his family to retain counsel to prepare a
motion to vacate under § 2255. Unfortunately, due to the
looming AEDPA deadline and his family's limited financial
resources, counsel could not be found to accept the case.
Equally regrettable is the reality that Petitioner simply
lacked the ability, as a result of his mental illness and
other extraordinary circumstances, to complete and
submit the § 2255 form he obtained from the prison law
library.
Petitioner also established that “extraordinary
circumstances,” including his severe mental illness, which
had progressively worsened as a result of the abuse he
had received during his incarceration, made it impossible
for him to timely file his motion to vacate. As was shown
during the sentencing proceedings in the underlying
criminal case, Petitioner had a profound history of
enduring sexual abuse and psychological trauma at the

-7hands of individuals with more power than him.
Additionally, Petitioner noted that he had been diagnosed
with PTSD, Chronic Depression, and Anxiety Disorder,
amongst other mental illnesses. In his motion to vacate
and supporting papers, Petitioner showed that his mental
illnesses were brought to a crisis of dysfunction by: 1) the
severity of the sentence affirmed by the appellate court, a
sentence which Petitioner was guaranteed would be
reversed by original appellate counsel; 2) the death of that
counsel; 3) deprivation of medications Petitioner had been
receiving; 4) sleeplessness; 5) isolation; and 6) the harsh
conditions of confinement Petitioner had suffered under.
Petitioner demonstrated that his mental illnesses
worsened as a result of learning that his sentence was
affirmed, and that the appellate attorney who had
guaranteed she would get his sentence reversed was dead.
The misadvice Petitioner received from successor
appellate counsel also contributed to the worsening of his
mental illnesses. Obviously, even the strongest and
healthiest mind would find the contrast between an
attorney who promised relief and one who advised that
there was no possible legal recourse for relief from an
aggregate 110-year prison sentence disturbing. The
predictable effect of this change in legal counsel was
Petitioner’s total breakdown, such that his mental
illnesses rendered him unable to function, even within the
rigid control of a correctional environment.
Additionally, Petitioner described how his mental
illnesses were adversely affected by the denial of
medications he had been receiving at a time of great

-8crisis, his erratic sleep patterns – both contributing to and
affected by his mental illnesses- and the severe isolation
he suffered after his only friend (and sole source of social
support) was released from prison. The harsh conditions
of confinement that Petitioner has suffered under also
contributed to the worsening of his mental illnesses. In
conclusion, Petitioner argued that his mental illnesses
severely impaired his ability to comply with the AEDPA
deadline, despite his diligent efforts to do so, entitling him
to equitable tolling of that deadline under Bolarinwa v.
Williams, 593 F.3d 226, 232 (2d. Cir. 2010).
On October 31, 2017, following a brief status
conference, the district court denied Petitioner’s motion to
vacate as untimely, refusing to grant equitable tolling, and
on the alternative ground that the claim presented in the
motion to vacate lacked sufficient merit. On November 9,
2017, the district court issued an order consistent with its
ruling. [App. B, A3-4]. On January 11, 2018, Petitioner
filed his timely notice of appeal. [DE #88].
C. The Second Circuit Denied COA.
On April 27, 2020, the United States Court of Appeals
for the Second Circuit denied COA because the appellant
“has not shown that ‘jurists of reason would find it
debatable whether the district court was correct in its
procedural ruling’ as to the untimeliness of the Appellant’s
motion filed pursuant to 28 U.S.C. § 2255.” [App. A, A2].
This petition is timely submitted, within 90 days of the
Second Circuit's April 27, 2020, order denying COA. [App.
A].

-9REASONS FOR GRANTING THE WRIT
This Court should grant the writ of certiorari. At a
minimum, this Court should order summary reversal
because in denying a certificate of appealability, the
Second Circuit has so far departed from the accepted and
usual course of judicial proceedings and sanctioned such
a departure by the district court, as to call for an exercise
of this Court’s supervisory power. This is true because the
district court’s procedural ruling, finding that Petitioner’s
motion to vacate was untimely because he was
undeserving of equitable tolling, was clearly debatable
amongst jurists of reason under controlling precedent.
Moreover, Petitioner’s underlying claim that his plea was
not knowing, intelligent or voluntary based on ineffective
assistance of counsel provided the required constitutional
dimension for a certificate of appealability. The Second
Circuit did not dispute Petitioner’s showing on this point,
but the district court did, so it is addressed herein.
A. The Certificate of Appealability Standard.
To obtain a certificate of appealability, a habeas
petitioner must make a “substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy
this standard, the petitioner need not demonstrate that he
would prevail on the merits. Rather, he “must ‘[s]how
reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved
in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.’”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting

-10Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting
Barefoot v. Estelle, 463 U.S. 880, 893 n.4 (1983)) (some
internal quotation marks omitted)).
“[A] COA does not require a showing that the appeal
will succeed.” Id. at 337. As this Court has explained: “We
do not require petitioner to prove, before the issuance of
a COA, that some jurists would grant the petition for
habeas corpus. Indeed, a claim can be debatable even
though every jurist of reason might agree, after the COA
has been granted and the case has received full
consideration, that petitioner will not prevail.” Id. at 338.
In Slack, 529 U.S. at 478, this Court held:
when the district court denies a
habeas petition on procedural
grounds without reaching the
prisoner's underlying constitutional
claim, a COA should issue (and an
appeal of the district court's order
may be taken) if the prisoner shows,
at least, that jurists of reason would
find it debatable whether the
petition states a valid claim of the
denial of a constitutional right, and
that jurists of reason would find it
debatable whether the district court
was correct in its procedural ruling.
Reasonable jurists could debate the merits of Petitioner's
Sixth Amendment claim that his guilty plea was not
knowing, intelligent and voluntary because it was based

-11on incomplete and incorrect advice of counsel.
Additionally, reasonable jurists could debate whether
equitable tolling should have excused the late filing of
Petitioner's petition where he demonstrated both
reasonable diligence and extraordinary circumstances.
The legal argument, set forth below, demonstrates that
Petitioner has satisfied the § 2253(c) standard because, at
a minimum, both the constitutional question and the
procedural one are “debatable among jurists of reason.”
Miller-El, 537 U.S. at 336 (quoting Barefoot, 463 U.S. at
893 n.4).
B. Reasonable Jurists Could Debate or, for that
Matter, Agree that Relief is Appropriate on
Petitioner’s Sixth Amendment Claim.
Petitioner’s Sixth Amendment claim meets the
standard for a certificate of appealability. Counsel
provides ineffective assistance when she misadvises her
client about the lack of any viable defense to the charges,
when there is a plausible defense which could be mounted,
and prejudice is demonstrated if there is a reasonable
probability that the client would have rejected the plea if
he had been accurately advised. Lee v. United States, 137
S.Ct. 1958, 1964-65 (2017); Hill v. Lockhart, 474 U.S. 52
(1985).
The record shows that Petitioner established
deficient performance. Specifically, Petitioner’s former
counsel advised him that he had no viable defense to the
charges he faced. Counsel made a similar statement on
the record at the Rule 11 hearing: “I’m not aware of any

-12viable defense that Mr. McGowan has to the charges.” [DE
#42, p. 16]. Former counsel also admitted to providing this
misadvice during the October 31, 2017 hearing on Mr.
McGowan's motion to vacate:
Q: With respect to any potential
defenses he may have had, can you
briefly tell us if you were able to
learn of any?
CHAVIS (former counsel): I was not
able to learn of any viable defense
he may have had.
Q: Did you communicate to Mr.
McGowan that there were no viable
defenses available to him?
CHAVIS: I did.
Q: With respect to a due process
challenge that could have been
lodged on a preindictment delay, did
you feel that was viable?
CHAVIS: I did not.
Q: I believe the indictment in this
case was returned sometime in
2009; is that correct?

-13CHAVIS: I believe that you are
correct.
Q: And that the offense conduct
occurred early in 2001; is that a fair
statement?
CHAVIS: I don't recall none [sic]
when the videos were created.
[DE #91, pp. 8-9].
Courts have long held that a statute of limitations can
be extended as long as the previous statute of limitations
has not expired prior to the enactment of the extension.
Falter v. United States, 23 F.2d 420, 25-26 (2d. Cir. 1928).
On July 27, 2006, the Adam Walsh Child Protection Act
was signed into law, which abolished the statute of
limitations for multiple offenses involving minors,
including the violations of 18 U.S.C. §2251, which
Petitioner pleaded guilty to violating. The removal of a
statute of limitations defense, as provided by the Adam
Walsh Act, was enacted shortly before the original statute
of limitations would have expired with respect to the
conduct of Petitioner under Count 1.
Petitioner was ultimately indicted in 2009, despite the
United States being aware of the offense many years
earlier. This delay violated Petitioner's Due Process rights
and allowed for a viable claim to be presented, based on
the preindictment delay of the prosecution, which did
substantially prejudice Petitioner. This Court has held

-14that “the Fifth Amendment requires the dismissal of an
indictment, even if it is brought within the statute of
limitations, if the defendant can prove that the
Government’s delay in bringing the indictment was a
deliberate device to gain an advantage over him and that
it caused him actual prejudice in presenting his defense.”
United States v. Gouveia, 467 U.S. 180, 192 (1984).
Similarly, in Doggett v. United States, 505 U.S. 647, 666
(1992), the Court stated that Marion “explained” that the
Due Process Clause “would require dismissal of [an]
indictment if it were shown at trial that [a] delay ... caused
substantial prejudice to [a defendant's] rights to a fair
trial and that the delay was an intentional device to gain
tactical advantage over the accused.” In this case,
Petitioner had an arguable basis to show that the
prosecution's delay prejudiced his ability to defend the
charges, by virtue of the prior conviction, and the
diminishment of both his resources and standing as a
result of his subsequent imprisonment for the prior
conviction.
Counsel's advice that Petitioner lacked any defense to
the charges was objectively unreasonable in light of the
potential Due Process claim under Gouveia. This is
particularly true where former counsel could not develop
a single potential defense. The misadvice former counsel
provided, that Petitioner lacked any potential defense
whatsoever, was objectively inaccurate, fell below the
minimum level of competence and constituted deficient
performance.

-15The record further demonstrates that absent
counsel’s misadvice, there is a reasonable probability that
Petitioner would have persisted in his plea of not guilty
and proceeded to exercise his right to a trial by jury.
Petitioner only pleaded guilty as a result of counsel’s
misadvice, which convinced him that pleading guilty was
his best option in light of the lack of any viable defense or
formal offer from the United States. Had counsel provided
accurate advice, that based on the readily apparent facts
Petitioner enjoyed a viable Due Process claim under
Gouveia, Petitioner would have persisted in his plea of
not guilty, sought to have the indictment dismissed on that
basis, and proceeded to trial by jury.
The fact that Petitioner’s plea was bereft of
demonstrable benefit buttresses his showing of a
reasonable probability that absent counsel’s misadvice–
that he lacked any viable defense to the charges -Petitioner would have persisted in his plea of not guilty
and proceeded to trial by jury.
The district court’s written order denying Petitioner’s
motion to vacate simply states that: “the Court [] found no
merit in the arguments raised in the § 2255 Petition,
thereby warranting dismissal.” [App. B, A3-4]. The
district court's oral explanation at the hearing was
similarly cursory:
Petitioner’s ineffectiveness of
assistance of counsel claims are
without any basis. Since Petitioner’s
ineffectiveness claim as to his

-16counsel at the time the trial level
relies upon the assumption that he
had a meritorious challenge based
on preindictment delay, and there’s
been none to show to have been a
factor in his sentencing or in the
ultimate conviction.
As I stated previously to counsel,
there was a very short period of
investigative delay and clearly no
prejudice to the defendant.
Therefore, he can use that
ineffectiveness claim or the due
process, either one, to substantiate
the other.
In addition, he’s failed to show that
any delay here was either tactical or
that caused him, as I stated
previously, any prejudice; therefore,
that claim is dismissed.
[DE #91, pp. 22-23].
This ruling is irreconcilable with the record and
controlling precedent, which demonstrate that Petitioner
had, at least, an arguable basis to pursue a defense based
on preindictment delay, and that he was prejudiced as a
result of the roughly seven year delay of the United States
in obtaining an indictment. This reality appears to have

-17been recognized by the Second Circuit, which entered an
order denying COA solely on the timeliness issue address,
infra. In light of the reality that reasonable jurists could
debate the appropriateness of the district court's decision
to dismiss Petitioner's motion to vacate on the ground that
his claim of ineffective assistance was baseless, as
described, supra, a COA should issue as to this question.
C. Reasonable Jurists Could Debate or, for that
Matter, Agree that the AEDPA Should Have Been
Tolled Due to Misadvice from Appellate Counsel,
Coupled with Petitioner’s Mental Illness.
Equitable tolling of the statute of limitations and
excusing Petitioner’s delay in filing in this case is fully
supported by the record and Supreme Court authority. As
this Court recently confirmed, AEDPA’s one-year
limitations period should be tolled if, consistent with the
general requirements of equity, a petitioner demonstrates
“‘(1) that he has been pursuing his rights diligently, and
(2) that some extraordinary circumstance stood in his
way’ and prevented timely filing.” Holland v. Florida, 560
U.S. 631, 648, (2010) (quoting Pace v. DiGuglielmo, 544
U.S. 408, 418 (2005)); see Smith v. McGinnis, 208 F.3d 13,
17 (2d Cir. 2000). While equitable tolling is warranted only
in “rare and exceptional circumstances,” Baldayaque v.
United States, 338 F.3d 145, 151 (2d Cir. 2003) (internal
quotation marks omitted), courts do not apply its
requirements mechanistically, see Holmberg v.
Armbrecht, 327 U.S. 392, 396 (1946) (observing that
“[e]quity eschews mechanical rules”). Rather, “the
exercise of a court’s equity powers must be made on a

-18case-by-case basis,” mindful “that specific circumstances,
often hard to predict in advance, could warrant special
treatment in an appropriate case.” Holland v. Florida,
130 S.Ct. at 2563 (internal quotation marks and alterations
omitted); accord Dillon v. Conway, 642 F.3d 358, 362 (2d
Cir. 2011). In the context of mental illness, the Second
Circuit has interpreted this Court’s authority on equitable
tolling to hold that an appropriate showing that a movant's
“particular disability constituted an “extraordinary
circumstance” severely impairing [his] ability to comply
with the filing deadline, despite [his] diligent efforts to do
so,” justifies tolling of the AEDPA one-year statute of
limitations. Bolarinwa v. Williams, 593 F.3d 226, 232
(2d. Cir. 2010).
The record shows that Petitioner acted with
reasonable diligence based on the misadvice he received
from appellate counsel, seeking to retain post-conviction
counsel as soon as he learned such advice was inaccurate,
and thereafter attempting to complete the pro se § 2255
form. That he was defeated in this undertaking by the
extraordinary circumstances described below should not
be held against him.
Petitioner asserted that he was misadvised by
successor appellate counsel that no further legal actions
were possible based on the Second Circuit's decision
affirming his sentence. During the evidentiary hearing,
successor appellate counsel conceded that following the
Second Circuit’s affirmance of Petitioner's sentence and
conviction, he felt that the chances of obtaining rehearing
or successfully petitioning the United States Supreme

-19Court for certiorari were “slim to none,” and conveyed his
opinion to Petitioner (by letter), but did not advise
Petitioner of his right to file a motion to vacate under 28
U.S.C. § 2255. Additionally, successor appellate counsel
testified that “to the best of [his] recollection [he] never
spoke with Petitioner telephonically or otherwise, over the
course of the representation.”
Petitioner showed that he reasonably relied on the
accuracy of this misadvice, sincerely believing that he had
no option but to serve however much of the 110-year
sentence his life span would allow. Thus, Petitioner
exhibited reasonable diligence in the pursuit of his rights
from the time he received this misadvice, around the time
of the Second Circuit's decision affirming his sentence,
until he discovered the availability of a motion to vacate
under § 2255 during the Summer of 2016.
The record shows that upon learning that appellate
counsel’s advice was false and that there was an available
legal action to seek to challenge his sentence, Petitioner
promptly asked his family to retain counsel to prepare a
motion to vacate under § 2255. Unfortunately, due to the
looming AEDPA deadline and his family’s limited financial
resources, counsel could not be found to accept the case.
Equally regrettable is the reality that Petitioner simply
lacked the ability, as a result of his mental illness and
other extraordinary circumstances, to complete and
submit the § 2255 form he obtained from the prison law
library.

-20The record also supports the reality that truly
extraordinary circumstances severely impaired
Petitioner's ability to comply with the AEDPA deadline. As
demonstrated in the district court, Petitioner suffers from
severe mental illness, which has progressively worsened
as a result of the abuse he has received during his
incarceration. The record developed in the district court
shows that Petitioner has a profound history of enduring
sexual abuse and psychological trauma at the hands of
individuals with more power than him. Petitioner has been
diagnosed with PTSD, Chronic Depression, and Anxiety
Disorder, amongst other mental illnesses. Petitioner's
mental illnesses were brought to a crisis of dysfunction by:
1) the severity of the sentence affirmed by the appellate
court, a sentence which Petitioner was guaranteed would
be reversed by original appellate counsel; 2) the death of
that counsel; 3) deprivation of medications Petitioner had
been receiving; 4) sleeplessness; 5) isolation; and 6) the
harsh conditions of confinement Petitioner has suffered
under.
Petitioner's mental illnesses worsened as a result of
learning that his sentence was affirmed, and that the
appellate attorney who had guaranteed she would get his
sentence reversed was dead. The misadvice Petitioner
received from successor appellate counsel, also
contributed to the worsening of his mental illnesses. Even
the strongest and healthiest mind would find the contrast
between an attorney who promised you relief and one who
advises you that you have no possible legal recourse for
relief from an aggregate 110-year prison sentence,
disturbing. The predicable effect of this change in legal

-21counsel was Petitioner's total breakdown, such that his
mental illnesses rendered him unable to function, even
within the rigid control of a correctional environment.
Petitioner's mental illnesses were adversely affected
by the denial of medications he had been receiving at a
time of great crisis, his erratic sleep patterns – both
contributing to and affected by his mental illnesses, and
the severe isolation he suffered after his only friend (and
sole source of social support) was released from prison.
The harsh conditions of confinement that Petitioner has
suffered under also contributed to the worsening of his
mental illnesses.
Petitioner's showing in the district court established
that his mental illnesses severely impaired his ability to
comply with the AEDPA deadline, despite his diligent
efforts to do so, entitling him to equitable tolling of that
deadline under Bolarinwa v. Williams, 593 F.3d 226, 232
(2d. Cir. 2010).
The district court’s written order, denying Petitioner's
motion to vacate, simply states that: “[a]fter the close of
testimony and hearing the parties’ closing arguments, and
for reasons stated on the record [at the October 31, 2017
hearing], the Court found that the § 2255 Petition was
untimely, which was a sufficient basis to dismiss the
Petition.” [App. B, A3]. The District Court's oral
explanation at the hearing was similarly cursory:

-22I will deal first of all, with the
timeliness of the application.
I find that it is definitely untimely,
and that there is no basis for
excusing that delay based upon
what has been presented in papers,
or based upon what was asserted
this morning.
Despite the fact that the timeliness
could result in dismissal of this
petition, I will go on to address the
merits...
[DE #91, pp. 20-21].
The Second Circuit denied Petitioner a COA on the
sole ground that he failed to show the debatability of the
district court’s untimeliness ruling above. [App. A, A2].
Both the district court’s cursory rejection of Petitioner's
equitable tolling argument and the Second Circuit’s ruling
that he failed to demonstrate the debatability of that ruling
are unsupportable on the record and under this Court’s
equitable tolling jurisprudence and the progeny thereof.
As reasonable jurists could debate the appropriateness of
the district court’s decision finding that Petitioner’s
motion could be dismissed as untimely and lacking a basis
for equitable tolling, as described, supra, a COA should
issue as to this question.

-23D. This Court Should Summarily Reverse the
Second Circuit’s Order Denying COA.
This Court has authority to “reverse any judgment”
brought before it and “remand the cause and direct entry
of such appropriate judgment . . . or require such further
proceedings to be had as may be just under the
circumstances.” 28 U.S.C. § 2106. Summary reversals are
“usually reserved by this Court for situations in which the
law is well settled and stable, the facts are not in dispute,
and the decision below is clearly in error.” Schweiker v.
Hansen, 450 U.S. 785, 791 (1981) (Marshall, J., dissenting);
see, e.g., United States v. Bass, 536 U.S. 862, 864 (2002)
(ordering summary reversal because the decision below
was “contrary to” established law); Maryland v. Dyson,
527 U.S. 465, 467 (1999) (ordering summary reversal);
Leavitt v. Jane L., 518 U.S. 137, 145 (1996) (ordering
summary reversal where the decision under review was
“plainly wrong”). The Second Circuit's order denying
Petitioner's motion for a certificate of appealability is
clearly wrong. Petitioner clearly satisfied the standard for
a certificate of appealability. This case warrants summary
reversal.

-24CONCLUSION
Based upon the foregoing petition, the Court should
grant a writ of certiorari to the United States Court of
Appeals for the Second Circuit, vacate the Second Circuit’s
order denying COA and remand the matter to the Second
Circuit with instructions to grant COA.
Respectfully submitted,
D. CRAIG HUGHES
Counsel for Petitioner
7324 Southwest Freeway
Suite 1466
Houston, Texas 77074
713-535-0683
dcraighughes@msn.com
July 14, 2020

